APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals, State
of Oklahoma (April 1, 2021) ..................................... 1a
District Court of Mcintosh County, State of
Oklahoma Entry of Facts and Conclusions of
Law (Signed September 23, 2020, Filed
September 24, 2020) ............................................... 12a
Agreed Stipulation (September 23, 2020) ....... 15a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 21, 2020) .................................................... 18a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 1, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
FLOYD JOSEPH BALL, JR.,

Petitioner,
v.
STATE OF OKLAHOMA,

Respondent.

________________________
Case No. C-2019-263

An Appeal from the District Court of McIntosh
County, the Honorable Brendon Bridges Associate
District Judge
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge.
OPINION
HUDSON, JUDGE:
Petitioner, Floyd Joseph Ball, Jr., entered a blind
plea of guilty in McIntosh County District Court, Case
No. CF-2018-89, to Count 1: Rape in the First Degree,

App.2a
in violation of 21 O.S.Supp.2017, § 1114(A)(5); and
Count 2: Kidnapping, in violation of 21 O.S.Supp.2012,
§ 741. The Honorable Brendon Bridges, Associate District Judge, accepted Petitioner’s plea and sentenced
Petitioner to twenty-four years imprisonment on Count
1 and twenty years imprisonment on Count 2 with
credit for time served. Judge Bridges ordered these
sentences to run consecutively. Petitioner must serve
85% of his Count 1 sentence before becoming eligible
for parole consideration. Petitioner’s subsequent motion
to withdraw his blind plea was denied and Petitioner
now seeks a writ of certiorari.
In Proposition One, Petitioner claims the District
Court lacked jurisdiction to accept his plea. Petitioner
argues that he is a citizen of the Mississippi Choctaw
Nation and the crimes occurred within the boundaries
of the Creek Reservation. Pursuant to McGirt v.
Oklahoma, 140 S.Ct. 2452 (2020), Petitioner’s claim
raises two separate questions: (a) his Indian status; and
(b) whether the crimes occurred on the Creek Reservation. These issues require fact-finding. We therefore
remanded this case to the District Court of McIntosh
County for an evidentiary hearing.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we requested
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Petitioner’s presentation
of prima facie evidence as to Petitioner’s legal status
as an Indian and as to the location of the crime in
Indian Country, the burden shifts to the State to prove
it has jurisdiction. The District Court was ordered to
determine whether Petitioner has some Indian blood
and is recognized as an Indian by a tribe or the fed-

App.3a
eral government. The District Court was further
ordered to determine whether the crimes in this case
occurred in Indian Country. In so doing, the District
Court was directed to consider any evidence the parties
provided, including but not limited to treaties, statutes,
maps, and/or testimony.
We also directed the District Court that in the
event the parties agreed as to what the evidence would
show with regard to the questions presented, the
parties may enter into a written stipulation setting
forth those facts upon which they agree and which
answer the questions presented and provide the stipulation to the District Court. The District Court was
also ordered to file written findings of facts and
conclusions of law with this Court.
A status hearing was held in this case on September 23, 2020, before the Honorable Brendon Bridges,
Associate District Judge. A written findings of fact
and conclusions of law from that hearing was timely
filed with this Court along with a transcript of the
hearing. The record indicates that appearing before
the District Court on this matter were attorneys
from the Oklahoma Attorney General’s Office, the
McIntosh County District Attorney’s Office and counsel
for Petitioner.
In its written findings of fact and conclusions
of law, the District Court stated that the parties have
jointly stipulated that the evidence will show Petitioner
is 1/8th degree Indian blood of the Mississippi Choctaw Tribe; that Petitioner was an enrolled member
of the Choctaw Nation of Oklahoma on the date of the
charged crimes; that the Choctaw Nation of Oklahoma
is an Indian Tribal Entity recognized by the federal
government; and that the charged crimes in this case

App.4a
occurred within the Creek Reservation. The District
Court attached as Joint Exhibit 1 to its findings of
facts and conclusions of law a document entitled Agreed
Stipulation signed by all counsel reflecting these stipulations.
The District Court accepted and adopted the stipulations made by the parties and concluded in its findings of fact and conclusions of law that Petitioner has
some Indian blood, that he is also recognized as an
Indian by a tribe and the federal government and
therefore Petitioner is an Indian under federal law.
Finally, the District Court accepted and adopted the
stipulation of the parties that the crimes in this case
occurred on the Creek Reservation.
On November 12, 2020, the State filed with this
Court a supplemental brief after remand. In its brief,
the State acknowledges the District Court accepted
the parties’ stipulations as discussed above and the
District Court’s findings. The State contends in its brief
that should this Court find Petitioner is entitled to
relief based on the District Court’s findings, this Court
should stay any order reversing the convictions for
thirty (30) days so that the appropriate authorities
can review his case, determine whether it is appropriate to file charges and take custody of Petitioner.
Cf. 22 O.S.2011, § 846.
After thorough consideration of this proposition
and the entire record before us on appeal including
the original record, transcripts and the briefs of the
parties, we find that under the law and evidence
relief is warranted. Based upon the record before us,
the District Court’s findings of fact and conclusions of
law are supported by the stipulations jointly made by
the parties at the status hearing. We therefore find

App.5a
Petitioner has met his burden of establishing his
status as an Indian, having 1/8th degree Indian blood
of the Mississippi Choctaw Tribe and being a member of the Choctaw Nation of Oklahoma. We further
find Petitioner met his burden of proving the crimes
in this case occurred on the Creek Reservation and,
thus, occurred in Indian Country. Pursuant to McGirt,
we find the State of Oklahoma did not have jurisdiction
to prosecute Petitioner in this matter.1 The Judgment and Sentence in this case is hereby reversed
and the case remanded to the District Court of
McIntosh County with instructions to dismiss the
case.2
DECISION
The Petition for Writ of Certiorari is GRANTED.
The Judgment and Sentence of the District Court is
REVERSED AND REMANDED WITH INSTRUCTIONS TO DISMISS. The MANDATE is not to be
issued until twenty (20) days from the delivery and
filing of this decision.3

1 I maintain my previously expressed views on the significance of
McGirt, its far-reaching impact on the criminal justice system
in Oklahoma and the need for a practical solution by Congress.
See Bosse v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson, J., Concur
in Results); Hogner v. State, 2021 OK CR 4, ___ P.3d ___ (Hudson,
J., Specially Concurs); and Krafft v. State, No. F-2018-340 (Okl.Cr.,
Feb. 25, 2021) (Hudson, J., Specially Concurs) (unpublished).
2 This resolution renders the other five propositions of error
raised in Petitioner’s brief moot.
3 By withholding issuance of the mandate for twenty days,
the State’s request for time to determine further prosecution is
rendered moot.

App.6a
AN APPEAL FROM THE DISTRICT COURT
OF MCINTOSH COUNTY THE
HONORABLE BRENDON BRIDGES
ASSOCIATE DISTRICT JUDGE
APPEARANCES AT TRIAL
Chad Johnson
Garrett Marshall
Okla. Indigent Def. System
P.O. Box 926
Norman, OK 73070
Counsel for Defendant
Carol Iski
District Attorney
Greg Stidham
Asst. District Attorney
McIntosh County
110 North 1st St.
Eufaula, OK 74432
Counsel for the State
Mike Hunter
Attorney General of Oklahoma
Joshua Fanelli
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for the State
APPEARANCES ON APPEAL
Lisbeth L. McCarty
Okla. Indigent Def. System
P.O. Box 926
Norman, OK 73070
Counsel for Petitioner

App.7a
Mike Hunter
Attorney General of Oklahoma
Joshua R. Fanelli
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for the Respondent
OPINION BY: HUDSON, J.
KUEHN, P.J.: CONCUR IN RESULTS
ROWLAND, V.P.J.: CONCUR
LUMPKIN, J.: CONCUR IN RESULTS
LEWIS, J.: CONCUR IN RESULTS

App.8a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must
at a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S.Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded
to do what an average citizen who had been fully
informed of the law and facts as set out in the dissents
would view as an exercise of raw judicial power to reach
a decision which contravened not only the history
leading to the disestablishment of the Indian reservations in Oklahoma, but also willfully disregarded
and failed to apply the Court’s own precedents to the
issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’s
scholarly and judicially penned dissent, actually following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.9a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.4
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
4 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act (IRA)
in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would trade
and associate. I just cannot get through my mind how
this bill can possibly be made to operate in a State of
thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could look
forward to building up huge reservations such as we have granted
to the Indians in the past.” Id. at 157. In 1940, in the Foreword
to Felix S. Cohen, Handbook of Federal Indian Law (1942),
Secretary of the Interior Harold Ickes wrote in support of the IRA,
“[t]he continued application of the allotment laws, under which
Indian wards have lost more than two-thirds of their reservation
lands, while the costs of Federal administration of these lands
have steadily mounted, must be terminated.” (emphasis added).

App.10a
with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate that
I fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with
the Indian reservations. Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907,
all parties accepted the fact that Indian reservations
in the state had been disestablished and no longer
existed. I take this position to adhere to my oath as a
judge and lawyer without any disrespect to our Federal-State structure. I simply believe that when reasonable minds differ they must both be reviewing the
totality of the law and facts.

App.11a
LEWIS, JUDGE, CONCURRING IN RESULTS:
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I concur in the decision
to dismiss this case for the lack of state jurisdiction.

App.12a
DISTRICT COURT OF MCINTOSH COUNTY,
STATE OF OKLAHOMA ENTRY OF FACTS
AND CONCLUSIONS OF LAW
(SIGNED SEPTEMBER 23, 2020,
FILED SEPTEMBER 24, 2020)
IN THE DISTRICT COURT OF
McINTOSH COUNTY, STATE OF OKLAHOMA
________________________
STATE OF OKLAHOMA,

Plaintiff,
v.
FLOYD JOSEPH BALL, JR.,

Defendant.
________________________
Case No. CF-18-89
Court of Criminal Appeal Number C-2019-263
Before: Brendon BRIDGES, Associate District Judge.
JOURNAL ENTRY OF FACTS AND
CONCLUSIONS OF LAW IN ACCORDANCE
WITH ORDER REMANDING FOR EVIDENTIARY
HEARING ISSUED AUGUST 21, 2020
Now on the 23rd day of September, 2020, comes on
for evidentiary hearing for the purpose of determining
the following: (a) Defendant’s Indian status and (b)
whether the crimes occurred on the Creek Reservation.
The Defendant appears in person and with counsel,

App.13a
Chad Johnson and Garrett Marshall. The State
appears by and through McIntosh County District
Attorney, Carol Iski, and assistant district attorney,
Greg Stidham. The Oklahoma Attorney General’s
Office appears by and through counsel, Joshus R.
Fanelli and Hannah K. White.
After receiving argument and evidentiary stipulations the Court hereby FINDS and ORDERS as
follows:
FINDINGS OF FACT AND
CONCLUSION OF LAW
The first issue for adjudication is the Defendant’s
status as an Indian as defined by federal law. The
Tenth Circuit’s decision in United States v. Diaz, 679
F.3d 1183 (10th Cir. 2012) articulates the test for
making such determination. As Diaz states:
To find that a person is an Indian the court
must first make factual findings that the
person has some Indian blood and, second,
that the person is recognized as an Indian
by a tribe or by the federal government.
Id. at 1187 (internal quotations omitted); see also
Goforth v. State, 1982 OK CR 48, 644 P.2d 114. Applied
to the present matter, the parties jointly stipulate in
writing the evidence will show “the [Defendant] is oneeight (1/8) degree Indian blood of the Miss. Choctaw
Tribe.” See Joint Exhibit 1 (attached). In addition, “[t]he
[Defendant] was an enrolled member of the Choctaw
Nation of Oklahoma on May 4 and 5, 2018, the dates
of the charged offenses.” Id. Finally, “[t]he Choctaw
Nation of Oklahoma is an Indian Tribal Entity recognized by the federal government.” Id. The Court
accepts and attaches these stipulations to the Court’s

App.14a
Findings of Facts and Conclusions of Law. Applying
elements of Diaz to the evidentiary stipulations in
the present matter, the Court finds the Defendant
has “some Indian blood” and is also “recognized as an
Indian by a tribe and the federal government.” For
this reason, the Court finds the Defendant is an Indian
under federal law.
Having found the Defendant is an Indian under
federal law, this Court must now determine if the
crime occurred on the Creek Reservation. As McGirt
v. Oklahoma, 140 S.Ct. 2452, 207 L.Ed.2d 985 (2020)
explains “[t]he 1833 Treaty fixed borders for what
was to be a ‘permanent home to the whole Creek
nation of Indians.’” Id. at 2461. The parties in this
matter stipulate “[t]he charged crimes occurred within
the Creek Reservation.” For this reason, the Court
adopts the stipulation and finds the crime occurred
on the Creek Reservation.
In accordance with the directives of the Oklahoma
Court of Criminal Appeals, the court reporter shall
file an original and two certified copies of the transcript
of this hearing within (20) days. This District Court
Clerk shall transmit the record of the evidentiary
hearing, this Journal Entry of Findings of Facts and
Conclusions of Law with attachments, and the transcript of this proceeding to the Clerk of the Court of
Criminal Appeals.
BE IT SO ORDERED
/s/ Brendon Bridges
Associate District Judge
McIntosh County State of Oklahoma

App.15a
AGREED STIPULATION
(SEPTEMBER 23, 2020)
IN THE DISTRICT COURT OF MCINTOSH
COUNTY STATE OF OKLAHOMA
________________________
FLOYD JOSEPH BALL, JR.,

Petitioner,
v.
THE STATE OF OKLAHOMA,

Respondent.

________________________
COCA No. C-2019-263

McIntosh County No. CF-2018-89
AGREED STIPULATION
Following the United States Supreme Court’s
decision in McGirt v. Oklahoma, 140 S.Ct. 2452 (2020),
the Oklahoma Court of Criminal Appeals remanded
Petitioner’s case to this Court on August 21, 2020, for
an evidentiary hearing to determine 1) Petitioner’s
status as an Indian, and 2) whether the crimes
occurred on the Creek Reservation. The parties hereby
announce, and request this Court to accept, the
following stipulations:

App.16a
1.

Petitioner is one-eighth (1/8) degree Indian
blood of the Miss. Choctaw Tribe.

2.

Petitioner was an enrolled member of the
Choctaw Nation of Oklahoma on May 4 and
5, 2018, the dates of the charged offenses.

3.

The Choctaw Nation of Oklahoma is an
Indian Tribal Entity recognized by the
federal government.

4.

The charged crimes occurred within the Creek
Reservation.

Respectfully submitted this 23rd day of September,
2020.
/s/ Chad Johnson
No. 32432
Garrett Marshall
No. 33960
General Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, Oklahoma 73070
(405) 801-2727
/s/ Joshua R. Fanelli
No. 33503
Hannah K. White
No. 34192
Oklahoma Attorney General’s Office
Assistant Attorneys General
313 N.W. 21st Street
Oklahoma City, OK 73105
(405) 521-3921

App.17a
/s/ Carol Iski
District Attorney
McIntosh County District Attorney’s Office
P.O. Box 127
Eufaula, Oklahoma 74432

App.18a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 21, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
FLOYD JOSEPH BALL, JR.,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.
________________________
No. C-2019-263
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice Presiding Judge., Gary L.
LUMPKIN, Judge., Robert L. HUDSON, Judge.,
Scott ROWLAND, Judge.
ORDER REMANDING
FOR EVIDENTIARY HEARING
Petitioner, Floyd Joseph Ball, Jr., entered a blind
plea of guilty in McIntosh County District Court, Case
No. CF-2018-89, to Count 1: Rape in the First Degree,
in violation of 21 O.S.Supp.2017, § 1114(A)(5); and
Count 2: Kidnapping, in violation of 21 O.S.Supp.2012,
§ 741. The Honorable Brendon Bridges, Associate Dis-

App.19a
trict Judge, accepted Petitioner’s plea and sentenced
Petitioner to twenty-four years imprisonment on Count
1 and twenty years imprisonment on Count 2 with
credit for time served. Judge Bridges ordered these
sentences to run consecutively. Petitioner must serve
85% of his Count 1 sentence before becoming eligible
for parole consideration. Petitioner’s motion to withdraw his blind plea was denied and Petitioner now
seeks a writ of certiorari.
In Proposition One, Petitioner claims the District
Court lacked jurisdiction to accept his plea. Petitioner
argues that he is a citizen of the Mississippi Choctaw
Nation and the crimes occurred within the boundaries
of the Creek Reservation.
Pursuant to McGirt v. Oklahoma, No. 18-9526
(U.S. July 9, 2020), Petitioner’s claim raises two separate questions: (a) his Indian status and (b) whether
the crimes occurred on the Creek Reservation. These
issues require fact-finding. We therefore REMAND
this case to the District Court of McIntosh County, for
an evidentiary hearing to be held within sixty (60)
days from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Petitioner’s presentation of
prima facie evidence as to the Petitioner’s legal status
as an Indian and as to the location of the crimes in
Indian Country, the burden shifts to the State to
prove it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified copies

App.20a
of the transcript within twenty (20) days after the
hearing is completed. The District Court shall then
make written findings of fact and conclusions of law,
to be submitted to this Court within twenty (20) days
after the filing of the transcripts in the District Court.
The District Court shall address only the following
issues.
First, the Petitioner’s status as an Indian. The
District Court must determine whether (1) Petitioner
has some Indian blood, and (2) is recognized as an
Indian by a tribe or the federal government.1
Second, whether the crimes occurred on the Creek
Reservation. In making this determination the District
Court should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings
of fact and conclusions of law, and any other materials
made a part of the record, to the Clerk of this Court,
and counsel for Petitioner, within five (5) days after
the District Court has filed its findings of fact and
conclusions of law. Upon receipt thereof, the Clerk of
this Court shall promptly deliver a copy of that record
to the Attorney General. A supplemental brief, addressing only those issues pertinent to the evidentiary
hearing and limited to twenty (20) pages in length,
may be filed by either party within twenty (20) days
after the District Court’s written findings of fact and
conclusions of law are filed in this Court.
1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116. See
also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).

App.21a
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented
and provide the stipulation to the District Court. In
this event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of McIntosh County:
Petitioner’s Brief in Chief, filed August 5, 2019. The
present order renders MOOT any request made to
date for supplemental briefing by either party in this
case as well as any request to file an amicus brief.

App.22a

IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 21st day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge

